GR-90-99-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
Contra Costa County Sheriff's Department
California
GR-90-99-006
 
December 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Contra Costa County Sheriff's Department (CCCSD),
California. The CCCSD received a grant of $1,646,955 to hire 18 deputy sheriffs under
Phase I and $750,000 to hire 10 deputy sheriffs under the Universal Hiring Program (UHP).
The CCCSD also received a supplemental UHP award of $375,000 to hire 5 deputy sheriffs
under the first supplemental UHP award (UHP I). In addition, the CCCSD received $1,777,480
to redeploy 71.1 deputy sheriff full time equivalents (FTEs) into community policing under
the Making Officer Redeployment Effective program (MORE 96). The purpose of the additional
officers under each of the grant programs is to enhance community policing efforts.
In brief, our audit determined that the CCCSD violated the following grant condition:


The CCCSD generally was not in compliance with grant reporting requirements. The CCCSD
    did not submit two Financial Status Reports (FSRs) for the UHP grant and two FSRs for the
    MORE 96 grant. Three FSRs for the Phase I grant, two FSRs for the UHP grant, and one FSR
    for the MORE 96 grant were submitted late. The Department Initial Report overstated the
    number of sworn deputy sheriff positions in the CCCSD. In addition, the CCCSD failed to
    submit the November 1997 Progress Report for the MORE 96 grant.

These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####